No. 20-732
Supreme Court of United States Office of the Clerk
Washington, DC 20543

David Wyche
Petitioner-Appellant
v.

Occupational Safety & Health Administration
OSHA - U.S. Department of Labor
Respondent-Appellee

Petition for Rehearing - Requesting Certiorari
David Wyche - Plaintiff
1 Towne Center Apt 621
Cliffside Park, NJ 07010
(718)514-1178
V.

Occupational Safety & Health - Respondent
(OSHA) United States Department of Labor
Office of the Solicitor Room Room N-2716
200 Constitution Avenue, NW
Washington, DC 20210
Clerk (Case No.19-3194)
United States Court of Appeals for the Second Circuit
Thurgood Marshall United States Courthouse
40 Foley Square
New York, NY 10007

RECEIVED
MAR 1 6 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

l

TABLE OF CONTENTS
1. Petition for rehearing Pg. 3
2. Certificate of Service Pg.3
3. Reasons to grant petition Pg. 4
4. GVR Order. Pg.4
5. Relief Sought Pg. 5
6. Grounds for requested relief Pg.5
7. Questions Preface Pg.7
8. First, Second Question Pg.7,8
9. OSHA’s disregard for protected activity Pg. 9,10
10. OSHA’s Failure to Act Pgs. 10, 11
11. OSHA’s STAA Omission Pg. 8
12. OSFIA’s Inspection, Recordkeeping Pg. 9
13. NY Whistleblower Retaliation & OSH ACT of 1970
14. Second Circuit Judicial Review Denial Pg. 15, 16
15. Federal Rules of Civil Procedure 60(b)(2) Pg. 16
16. Conclusion Pg. 17

FEDERAL STATUTES
1. (OSH Act 1970), Section 11(c) 29 U.S.C. §660(c) Pgs. 5, 7, 9, 15
2. 29 U.S. Code § 657(a)(l)(2) (Inspections, Investigations and Recordkeeping) Pgs. 5, 13, 15
3. 5 U.S. Code § 706 (Government Agencies - Judicial Review) Pg. 7, 10, 11, 12, 13
4. Federal Rule of Appellate Procedure 27 Pg.5
5. 5 U.S. Code § 552a (Records Maintained on Individuals) Pg. 1,9, 10, 15
6. 49 U.S.C. §31105 (STAA- Employee Protections) Pgs. 7, 11, 12, 15
7. 29 U.S.C. § 654 (General Duty Clause) Pg.13
8. 5 U.S. Code § 551 (Administrative Procedure) Pg. 13
9. Rule 60(b)(2) (Federal Rules of Civil Procedure) Pg. 16
10. Rule 60(b)(6) (Federal Rules of Civil Procedure) Pg. 16
OSHA DEPT. LABOR - FEDERAL REGULATIONS (Agency codes)
1. 29CFR. §1910.332(a) 1910 - Occupational Safety & Health Standards - Safety/Training Pg. 13
2. 29CF.R. §1904.35(b)(l)(iv) - OSHA Injury and Illness Recordkeeping Requirements Pg.5,10,15

2

A

3. 29CF.R. § 1977.9(a) - OSHA Discrimination against employees exercising rights under the
occupational safety and health act of 1970 Pg. 9
CASES
1. Heckler v. Chaney, 470 U.S. 821 1985 Pgs. 4, 6, 15,
2. Long Island Precast, Inc. v. U.S. Dep't of Labor, (E.D.N.Y. Jul. 29, 2014) Pg. 8
3. DeCintio v. Westchester County Medical Center 821 F.2d 111 (2d Cir. 1987) Pg.9
4. United States v. Wunderlich, 342 U.S. 98, 101 (1951) Pg. 6
5. Data Processing Svc. Orgs. v. Camp, 397 U.S. 150 (1970) Pg.6
6. Motor Veh. Mfrs. Ass'n v. State Farm Ins., 463 U.S. 29 1983 Pg. 10
7. Conyers v. U.S. Dep't of Veterans Affairs No. 16-2259 (Fed. Cir. 2018) Pg.10
8. Norton v. Southern Utah Wilderness Alliance 542 U.S. 55 (2004) Pgs. 4,10, 11
9. NAACP v. Secretary of Housing Urban 817 F.2d 149 (1st Cir. 1987) Pgs.l 1
10. Dunlop v. Bachowski, 421 U.S. 560 (1975) Pg. 11
11. United States v. Brennan 650 F.3d 65 (2d Cir. 2011) Pg. 15
12. Jute v. Hamilton Sundstrand Corp 2005 420 F.3d 166 (2d Cir. 2005) Pg. 15
13. Bymie v. Town of Cromwell, Bd. of Educ., (243 F.3d 93 (2d Cir. 2001) Pg. 15
14. NLRB v. Pier Sixty, LLC, No. 15-1841 (2d Cir. 2017) Pg. 16
15. Nemaizer v. Baker, 793 F.2d 58, 65 (2d Cir. 1986) Pg. 16

LEGAL JOURNAL ARTICLES
1. Martin Shapiro, Administrative Discretion: The Next Stage, 92 YALE L.J. (1983) Pg.6
2. L. Jaffe, Judicial Control of Administrative Action 375 (1965) Pg.6
APPENDIX (Exhibits supporting petition) Pg. 17

PETITION FOR REHEARING & CERTIFICATE OF SERVICE
Pursuant to rule 44.2 of the rules of the United States Supreme Court, Petitioner
respectfully petitions for the rehearing of this court’s January 25, 2021 order denying the petition
for certiorari. Pursuant to Rule 44.2, the undersigned hereby certifies that the attached petition
for rehearing of an order denying writ of certiorari is restricted to the grounds specified in Rule

3

44.2: it is limited to intervening circumstances of a substantial or controlling effect or to other
substantial grounds not previously presented. Petitioner further certifies that the attached petition
is presented in good faith and not for delay.
REASONS FOR GRANTING THE PETITION FOR REHEARING
Constitutional Challenge to the Administrative Procedure Act (APA)
Rule 44.2 of the Rules of the Supreme Court of the United States allows petitioners to file
petitions for rehearing of the denial of a petition for writ of certiorari and permits rehearing on
the basis of “intervening circumstances of a substantial or controlling effect or to other
substantial grounds not previously presented. Here, a substantial ground not previously presented
warrants a rehearing. Briefly and distinctly, on this date this Court granted certiorari in three
cases involving critically important questions concerning the constitutional status of the
Administrative Procedure Act (APA): Heckler v. Chaney, 470 U.S. 821, 105 S. Ct. 1649 (1985),
Norton v. Southern Utah Wilderness Alliance, 542 U.S. 55 (2004) and Bowen v. Massachusetts,
487 U.S. 879, 108 S. Ct. 2722 (1988). As the Federal Circuit record reflects, though the
petitioner timely and correctly raised this very same constitutional challenge with the Federal
Circuit (19-3194 Motion & Appendix); the petitioner was nevertheless incorrectly and unjustly
denied relief. Rehearing is accordingly warranted.
GRANT, VACATE, REMAND ORDER
I’m requesting that the supreme court grant my petition of certiorari, vacate the lower
court decision without finding error and remand this case for further consideration by the lower
court based on the second circuit’s denial of my petition for judicial review. OSHA -Department
of Labor violated agency rule - 29CF.R. §1904.35(b)(l)(iv) and federal authority 29 U.S.
Code § 657(a)(l)(2), which led to abandonment of authority responsibilities under (OSH Act

4

1970), Section 11(c) 29 U.S.C. §660(c). In my earlier petitions I did not recognize agency’s
repeated violations of its own rules and how agency action served to veto statutory
responsibilities under (OSH Act 1970), Section 11(c) 29 U.S.C. §660(c), which is why my
petition should be granted certiorari to correct the legal suffering I experience due to agency
action.
RELIEF SOUGHT
Appellant moves the Court Pursuant to Federal Rule of Appellate Procedure 27 for an
order vacating and remanding the case to the lower court.
GROUNDS FOR THE REQUESTED RELIEF
On January 25, 2021 this court denied my writ of certiorari, which addressed the
constitutionality of the occupational safety and health administration - dept of labor’s decision to
dismiss my whistleblower 11 ©-retaliation complaint arbitrarily. The second circuit court declined
my petition for judicial review despite the APA allowing district court review. “For the plaintiff
to have standing to seekjudicial review of administrative action, two questions must be
answered affirmatively: (1) Has the complainant alleged an "injury in fact?; and (2) Is the
interest that the complainant seeks to protect "arguably within the zone of interests to be
protected or regulated by the statute or constitutional guarantee in question"? Association of
Data Processing Service Organizations v. Camp, 397 U.S. 150, 90 S. Ct. 827, 25 L. Ed. 2d 184
(1970)
The second circuit district court cited “Heckler v. Chaney, 470 U.S. 821 (1985) ” in
support of the court’s decision to deny my judicial review. The second circuit court ruled that the
administrative agency’s decision not to engage in enforcement proceedings did not subject my
petition to judicial review. However, the supreme court justices ruled that “agency inaction is

5

subject to judicial review if the agency expressly adopted a policy that amounted to an
abdication ofstatutory responsibilities Heckler v. Chaney, 470 U.S. 821 (1985)”. “Since
passage of the APA, the sustained effort ofadministrative law has been to "continuously
narrow[w] the category of actions considered to be so discretionary as to be exemptedfrom
review." Shapiro, Administrative Discretion: The Next Stage, 92 Yale L. J. 1487, 1489, n. 11
(1983). Discretion may well be necessary to carry out a variety of important administrative
functions, but discretion can be a veil for laziness, corruption, incompetency, lack ofwill, or
other motives, andfor that reason "the presence of discretion should not bar a court from
considering a claim of illegal or arbitrary use of discretion. “L. Jaffe, Judicial Control of
Administrative Action 375 (1965).
GROUNDS FOR THE REQUESTED RELIEF (continued)
“Judicial review is available under the APA in the absence ofa clear and convincing
demonstration that Congress intended to preclude it precisely so that agencies, whether in
rulemaking, adjudicating, acting or failing to act, do not become stagnant backwaters of caprice
and lawlessness. "Law has reached its finest moments when it has freed man from the unlimited
discretion ofsome ruler, some civil or military official, some bureaucrat." United
States v. Wunderlich, 342 U.S. 98, 101 (1951). There are five reasons why agency decision was
arbitrary and capricious pursuant to 5 U.S. Code § 706(2)(a); (1) osha’s disregard of my
protected activity complaints, (2) osha’s failure to act within statutory deadlines, (3) osha’s
denial of whistleblower protections under 49 U.S.C. §31105, (4) osha’s failure to conduct a work
inspection involving reported hazards, (5) including agency’s lack of recordkeeping.

6

TWO QUESTIONS PRESENTED
This reconsideration for writ of certiorari includes two questions that serve to illuminate the
respondent’s repeated violations of multiple federal statutes the supreme court overlooked.
FIRST QUESTION PREFACE
Should the supreme court reconsider the previous ruling, grant certiorari, vacate the lower court
decision and remand this case to the lower court for future proceedings to correct agency
violation of federal law OSH Act Section 11(c) 29 U.S.C. §660(c) considering I was terminated
unjustly, including agency’s (OSHA) omission of employment records an investigation, which is
prohibited pursuant to the 1974 Privacy Act - 5 U.S. Code §552a (e)(l)(5).
FIRST QUESTION
Did OSHA - Department of Labor abdicate statutory responsibilities under OSH Act Section
11(c) 29 U.S.C. §660(c) provided agency’s inaction to collect employment records from my
former employer (K&M Systems Inc.) or to give proper consideration to the facts of my
whistleblower 1 l(c)-retaliation claim relevant to agency decision?
SECOND QUESTION PREFACE
The second question seeks to conclusively resolve statutory interpretations of the
Occupational Safety and Health Act (OSH Act), Section 11(c) 29 U.S.C. §660(c), considering
my agency complaint was dismissed despite established agency prima facie and I was terminated
eleven days following my final protected activity complaint, which suggests retaliation by my
former employer (K&M Systems Inc.) pursuant to the OSH Act of 1970 Section 11(c) 29 U.S.C.
§660(c). My work complaints were not investigated by my former employer whatsoever, instead
I was quickly discharged within eleven days.

7

SECOND QUESTION
Should the supreme court grant certiorari to conclusively resolve agency interpretations of the
OSH Act of 1970, considering agency prima facie served to demonstrate that my former
employer (K&M Systems Inc.) violated the general duty clause, but the agency failed to conduct
a work inspection or maintain recordkeeping, which shows the agency neglect to perform
statutory responsibilities under the OSH Act of 1970?

“Congress enacted the OSH Act in 1970 "to assure so far as possible every working man and
woman in the Nation safe and healthful working conditions and to preserve our human
resources." 29 U.S.C. § 651(b). Consistent with that purpose, Section 5(a) of the OSH Act
mandates that: Each employer (1) shall furnish to each of his employees ’ employment and a
place of employment which are free from recognized hazards that are causing or are likely to
cause death or serious physical harm to his employees; (2) shall comply with occupational safety
and health standards. .. and all rules, regulations, and orders issued pursuant to this chapter
which are applicable to his own actions and conduct. 29 U.S.C. § 654(a). So that the Department
ofLabor may carry out the purposes of the OSH Act, Section 8(a) of the OSH Act authorizes the
Secretary ofLabor to inspect and investigate workplaces. 29 U.S.C. § 657(a). Section 8(b)
authorizes the issuance of administrative subpoenas requiring "the attendance and testimony of
witnesses and the production of evidence under oath." 29 U.S. C. § 657(b) ” “Long Island
Precast, Inc. v. U.S. Dep’t ofLabor, 14-MC-0772(JS) (E.D.N.Y. Jul. 29, 2014)”.

8

OSHA’s ARBITRARY AND CAPRICIOUS DISREGARD FOR PROTECTED
ACTIVITY
(1) My protected activity complaints involving unsafe work conditions to my former
employer (K&M Systems Inc. -Human Resources), images of unsafe work conditions, in
connection with my termination letter, which I received eleven days after my final
protected activity complaints provided OSHA with the ability to establish prima facie in
my whistleblower 11 ©-retaliation claim under Section 11(c) 29 U.S.C. §660(c) and 29
C.F.R. § 1977.9)(a) (Osha Federal Regulation). The second circuit court of appeals
ruled that “The causal connection between the protected activity and the adverse
employment action can be established indirectly with circumstantial evidence, for
example, by showing that the protected activity was followed by discriminatory treatment
or through evidence of disparate treatment of employees who engaged in similar conduct
or directly through evidence ofretaliatory animus DeCintio v. Westchester County
Medical Center, 821 F.2d 111 (1987)

I was fired eleven days after my final work

complaint.
Agency prima facie was not challenged with employee retention-records i.e., employee
training or disciplinary records, as I obtained my agency complaint file pursuant to 5 U.S. Code
§ 552a, which omitted employment records. Agency did not collect employee records from my
former employer (K&M Systems Inc.) to factually substantiate my former employer’s claims
that I was terminated for performance reasons and not for engaging in protected activity.
Employment evidence e.g., training or disciplinary records would have demonstrated my job
performance, but the respondent failed to collect recordkeeping evidence in an employment
investigation, which conflicts with the respondent’s regulations under 29 CFR 1904.35(b)(l)(iv),
including 5 U.S. Code § 552a(e)(l). “As Magistrate Judge Locke correctly stated, to plead a

9

violation of these sections, a complaint must "identify a rule or safeguard. . . that [the agency]
should have established but did not." E.g, Dick v. Holder, 67 F. Supp. 3d 167, 186 (D.D.C.
2014) (collecting cases). Conyers v. U.S. Dep't of Veterans Affairs, 16-CV-0013 (JFB) (SIL)
(E.D.N.Y. Feb. 26, 2018)’’.
OSHA’s ARBITRARY AND CAPRICIOUS DISREGARD FOR PROTECTED
ACTIVITY (CONTINUED)
Agency decision to dismiss my claim for performance reasons was not warranted by the facts of
this case due to the agency’s omission of employment evidence prohibited by 5 U.S. Code §
706(2)(e)(f), which illustrates agency inaction was arbitrary and capricious due to the agency’s
violation of its own record-keeping regulations under 29 CFR 1904.35(b)(l)(iv), including
federal record-keeping laws such as 5 U.S. Code § 552a(e)(l)(5)(9). “The agency's decision must
reveal a rational connection between the facts found and the choice made State Farm, 463 U.S.
at 43, 103 S. Ct. 2856 (quoting Burlington Truck Lines, Inc. v. United States, 371 U.S. 156)”.

OSHA’S FAILURE TO ACT WAS ARBITRAY AND CAPRICIOUS
(2) Pursuant to 5 U.S. Code §551(13), the administrative procedure act defines agency
action to include failure to act, "failure to act is simply the omission of an action without
formally rejecting a request - for example, the failure to promulgate a rule or take some
decision by a statutory deadline Norton v. Southern Utah Wilderness Alliance, 542 U.S.
55 (2004) ”. Agency rendered an untimely decision to dismiss my whistleblower 11©retaliation complaint wherein OSHA issued a decision two-hundred and twenty-six days
from the date I filed my whistleblower claim (date of claim - 11/26/2018 - agency
decision - 07/10/2019 = 226 days). Agency decision exceeded the statutory deadline

10

pursuant to the Surface Transportation Assistance Act 49 U.S.C. §31105(c) - 210 days.
OSHA never explained the reason for the claim delays, which suggests bad faith
considering the respondent took an unreasonable amount of time to render a decision.
OSHA’S FAILURE TO ACT WAS ARBITRAY AND CAPRICIOUS
(CONTINUED)
The Surface Transportation Assistance Act (STAA) contains a “kick out” provision
allowing good faith complainants like myself to file retaliation claims in district court once the
two hundred-ten-day statutory deadline passed without decision. Based on my transportation
worker status and the agency’s failure to make a decision pursuant to STAA statutory deadline,
my whistleblower©-retaliation claim was qualified for “de novo review” on Monday June 25,
2019 (211 days). The Occupational safety and health administration’s unexplained claim delays
and agency inaction to adhere to STAA statutory deadline illustrate the arbitrary and capricious
handling of my whistleblower complaint pursuant to 5 U.S. Code § 706(1 )(2)(a).

The agency’s repeated violation of the administrative procedure act demonstrates why
my petition should be granted certiorari. The supreme court ruled that “the APA only allows
courts to examine government agencies'failures to meet specific statutory requirements Norton
v. Southern Utah Wilderness Alliance, 542 U.S. 55 (2004)”. “The purpose of U.S. Code §
706(2)(a) is to provide judicial review of agency action and inaction thatfalls outside its
statutory powers NAACP v. Secretary of Housing Urban Development, 817 F.2d 149, 160 (1st
Cir. 1987)”. As “Dunlop v. Bachowski, 421 U.S. 560 (1975), recognized, the problems and
dangers of agency inaction are too important, too prevalent, and too multifaceted to admit of a
single facile solution under which "enforcement".

11

OSHA’s OMISSION OF STAA PROTECTIONS WAS ARBITRAYAND CAPRICIOUS
(3) Agency action to withhold transportation whistleblower provisions from my
whistleblower 11 ©-complaint was arbitrary and capricious considering OSHA’S Regional
Investigator Dennis Vamvakas was aware of my transportation-worker status. My former
employer (K&M Systems Inc.) hired me as a field test engineer, but my position mandated a
driver license as I was provided with company vehicle, which was a bucket truck that contained
ample cargo space to transport freight i.e., telecommunication procurements: fiber cables,
antennas, radios, tools, etc. The bucket truck also contained an aerial lift that enabled me to work
on small cells (compact cell towers) at height. Additionally, I provided OSHA Staff with work
vehicle complaints I made to K&M Systems Inc. Human Resources. However, the agency failed
to integrate transportation whistleblower protections I qualified for, into my whistleblower 11©retaliation claim under 49 U.S.C. §31105.
Resultantly, the agency acted arbitrary and capriciously by denying me federal
transportation protections by intentionally excluding my transportation-worker status from
agency investigation, which depicts the series of agency’s abuse of power involving repeated
violations of the administrative procedure act specifically 5 U.S. Code § 706(2)(a)(d)(e). OSHA
- Department of Labor erased the possibility of job reinstatement provided by statue, 49 U.S.C.
§31105 due to arbitrary and capricious handling of this claim, which is why I humbly request
certiorari because I was aggrieved by the respondent unjustly. “In cases where administrative
misuse of procedure has delayed relief the courts have the equitable power to order relief
tailored to the situation, not mere remandfor agency use of its discretion. Ford Motor Co. v.
NLRB, 305 U.S. 364, 373, 59 S.Ct. 301, 307, 83 L.Ed. 221 (1939)”.

12

OSHA’S LACK OF HAZARD INSPECTION OR RECORDKEEPING WAS ARBITRAY
AND CAPRICIOUS
(3) My unsafe work complaints to K&M Systems Inc. - human resources, joined with images
of unsafe work conditions showed the agency that my former employer violated the
general duty clause pursuant to 29 U.S. Code § 654(a)(l)(2), which served to establish
agency prima facie. OSHA refused to recognize that K&M Systems Inc. violated agency
rule 29 CFR 1910.332(a) “electrical training” despite being provided with images of
work conditions that depict wet telecommunications equipment that me susceptible to
electrical injury. I communicated to OSHA that I did receive electrical work training
from my former employer despite working on energized equipment daily. Multiple cell
towers I worked on contained splice fiber optic cables, warm equipment and my work
vehicle was malfunctioned; it possessed multiple transmissions issues, e.g., transmission
warning light on, grinding gears, vehicle consistently shaking, fluid leaks, broken shift
knob and the passenger mirror was omitted.

The work hazards I experienced made me susceptible to serious physical harm e.g., fall from
height due to the vehicle malfunctioned condition or electrical injury due to working in wet
conditions under K&M Systems Inc. directives, which is prohibited pursuant to 29 U.S. Code §
654(a)(l)(2). OSHA - The Dept, of Labor did not conduct an employment inspection of the work
hazards pursuant to 29 U.S. Code § 657(a)(l)(2), which adds to the agency’s repeated violation
of statutory responsibilities under 29 U.S. Code § 657(a)(l)(2) regarding the agency’s inaction to
inspect work hazards, coupled with the agency’s noncompliance to the administrative procedure
act - 5 U.S. Code § 706(2)(a).

13

OSHA’S LACK OF HAZARD INSPECTION OR RECORDKEEPING WAS ARBITRAY
AND CAPRICIOUS (CONTINUED)
Agency inaction involving the handling of my claim led to the abdication of statutory
responsibilities under OSH Act Section 11(c) 29 U.S.C. §660(c), which qualifies my petition to
be granted certiorari, considering the lower court denied my petition despite clear evidence of
workplace retaliation, including protected activity “Under the first step of the McDonnell
Douglas framework, the plaintiffmust establish a prima facie case ofretaliation by showing 1)
“participation in a protected activity”; 2) the defendant's knowledge of the protected activity; 3)
“an adverse employment action ”; and 4) “a causal connection between the protected activity
and the adverse employment action. ” Jute v. Hamilton Sundstrand Corp., 420 F.3d 166,
173 (2d Cir.2005)”.
NY WHISTLEBLOWER STATUE § 740(2)(a) & OSH ACT 1970 SECTION 11(c)
(5) New York’s Whistleblower laws prohibits retaliation based on the disclosure of unsafe work
conditions to management and the OSH Act of 1970 corresponds with § 740(2)(a). I faced
adverse employment action e.g., termination; eleven days following my work complaint to
human resources, which illustrates retaliation by my former employer (K&M Systems Inc.).
Additionally, K&M Systems Inc. changed their reason for terminating my employment to OSHA
once I initiated an agency complaint, which suggest retaliation. My termination letter reads that
Crown Castle (third party company) wanted to conclude my work contract, following my
termination I received an email from K&M Systems Inc. human resources thanking me for my
hard work. Contrarily once K&M Systems Inc. was contacted by OSHA, my former employer
told the agency I was discharged for underperformance, which suggests retaliation pursuant to

14

NY WHISTLEBLOWER STATUE § 740(2) on the grounds that K&M Systems Inc. provided
conflicting reasons to terminate my employment.
“Once the plaintiffhas established prima facie showing of retaliation, the burden shifts
to the employer to articulate some legitimate, non-retaliatory reason for the employment
action. United States v. Brennan, 650 F.3d 65, 93 (2d Cir.2011)

“From such discrepancies, a

reasonable juror could conclude that the explanations were a pretextfor a prohibited
reason. See, e.g, Byrnie v. Town of Cromwell, Bd. ofEduc., 243 F.3d 93, 105-07 (2d Cir.2001).
Cited in “Kwan v. Andalex Grp. LLC, 737 F.3d 834 (2d Cir. 2013) ”.

SECOND CIRCUIT DISTRICT COURT DENIAL MY JUDICIAL REVIEW
The second circuit denied my judicial review, citing - Heckler v. Chaney, 470 U.S. 821
(1985). However, the supreme court ruled that “agency inaction is subject to judicial review if
the agency expressly adopted a policy that amounted to an abdication ofstatutory
responsibilities. Heckler v. Chaney, 470 U.S. 821 (1985). The Chaney decision made clear that
judicial review of agency inaction is available when the agency's enforcement decision violates
statutory constraints, therefore I am covered under this language considering OSHA’S inaction
to apply federal protections I qualified for to my agency whistleblower claim under 49 U.S.C.
§31105. Agency’ refusal to conduct a work inspection pursuant to 29 U.S. Code § 657(a)(l)(2)
or adhere to agency recordkeeping rules under 29 CFR 1904.35(b)(l)(iv) in order to perform
statutory responsibilities under (OSH Act 1970), Section 11(c) 29 U.S.C. §660(c). OSHA’s
violation of the 1974 Privacy Act; specifically, 5 U.S. Code § 552a (e)(l)(5) involving the
omission of employee records from my agency complaint file demonstrates agency action served
to undermine the performance of the OSH Act of 1970.

15

SECOND CIRCUIT DISTRICT COURT DENIAL MY JUDICIAL REVIEW
(CONTINUED)
The second circuit upheld plaintiffs protected activity in the following case: NLRB v. Pier Sixty,
LLC, No. 15-1841 (2d Cir. 2017) and granted enforcement proceedings but denied my judicial
review despite established agency prima facie, including clear evidence of retaliation by my
former employer. In “Nat’l Labor Relations Bd. V Matsu Corp., 19-2288-ag (2d Cir. Sep. 3,
2020), the second circuit granted enforcement proceedings based on the defendant’s interference
of protected activity, but the district court overlooked my petition that addressed the same legal
questions or issues. The lower court made contradicting decisions involving related cases that
addressed the same issues wherein my petition was denied judicial review, but the lower court
granted similar cases enforcement proceedings involving protected activity and workplace
retaliation, which is contradictory.
FEDERAL RULES OF CIVIL PROCEDURE 60(b)(2)
Rule 60(b)(2) and 60(b)(6) - Federal Rules of Civil Procedure Title VII. (Judgement)
enables me to seek “extraordinaryjudicial relief " upon a showing of “exceptional
circumstances” Nemaizer v. Baker, 793 F. 2d 58,61 (2d Cir. 1986). “Second, a broad reading of
the parties' stipulation here would deny the plaintiffhis day in court by re-inserting the very
language the parties themselves intentionally deleted. That result is contrary to the policy of
Rule 60(b), "a remedial provision intended to prevent injustice by allowing parties their day in
court even though some technical error has occurred which would otherwise be grounds for
default or dismissal." Greater Baton Rouge Golf Association v. Recreation and Park
Commission, 507 F.2d 227, 228 (5th Cir. 1975) (per curiam) Nemaizer v. Baker, 793 F.2d 58,61
(2d Cir. 1986).

16

CONCLUSION
I was retaliated by K&M Systems Inc -former employer and aggrieved by the agency involving
the department of labor’s arbitrary and capricious handling of my whistleblower complaint. I
humbly request that my petition be granted certiorari based on the circumstances. Thank You!
APPENDIX (in support of petition)
Emails (3 emails) Unsafe work conditions
A. Protected activity complaints 9/17/2018 - Malfunctioned work vehicle.
B. Protected activity complaints 10/22/2018 - Malfunctioned work vehicle.
C. Protected activity complaint 11/5/2018 - Unsafe work conditions.
Good work recommendation email from Katie Hunt - K&M Systems Inc.
(Conflicts with staff statements that I unperformed).
Text Messages (4 Text messages) Training and Unsafe Work Conditions
E. 10/22/2018 Reported unsafe work conditions.
G. Messages show I was at work after 3pm (communicated with Katie & Mark of K&M
Systems Inc.) on 11/5/2018.
H. Additional messages that show I worked on 11/5/2018.
Penitent Claim Documents (8 documents)
I. Termination Letter 11/16/2018 (does not specify reason of termination)
I. 12/13/2018 K&M Systems Inc. conflicting statement involving whistleblowerllc claim.
J. Passenger mirror missing from work vehicle.
K. Pictures of wet electrical equipment I partially installed in the rain on 11/5/2018.
L. Prima Facie established (OSHA - U.S. Dept Labor) whistleblower 1 lc document.
N. Chronology on whistleblower 1 lc investigation (cursory investigation

17

Additional material
from this filing is
available in the
Clerk's Office.

